Brian H. Fletcher
Acting Solicitor General
United States Department of Justice 950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
202-514-2217
Counsel of Record for Respondents U.S. Environmental Protection Agency, et. al.
Sean Hoe Donahue
Donahue, Goldberg & Littleton
1008 Pennsylvania Avenue, SE
Washington, DC 20003
sean@donahuegoldberg.com
202-277-7085
Counsel of Record for Non-Governmental Organization and Trade Association Respondents
Beth Susan Brinkmann
Covington & Burling LLP
850 Tenth Street, NW
Washington, DC 20001-4956
bbrinkmann@cov.com
202-662-5312
Counsel of Record for Respondents Consolidated Edison, Inc., Exelon Corporation, National
Grid USA, New York Power Authority, Power Companies Climate Coalition, and Sacramento
Municipal Utility District
Elbert Lin
Hunton Andrews Kurth LLP
951 E. Byrd Street
Riverfront Plaza, East Tower
Richmond, VA 23219-4074
elin@HuntonAK.com
804-788-7202
Counsel of Record for Respondent America’s Power
Emily Church Schilling
Holland & Hart LLP
901 K Street NW Suite 850
Washington, DC 20001
ecschilling@hollandhart.com
202-393-6500
Counsel of Record for Respondent Basin Electric Power Cooperative

Misha Tseytlin
Troutman Pepper Hamilton Sanders LLP
227 W. Monroe St.
Suite 3900
Chicago, IL 60606
misha.tseytlin@troutman.com
(608) 999-1240
Counsel of Record for Respondent National Mining Association
Barbara Dale Underwood
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
Barbara.underwood@ag.ny.gov
212-416-8016
Counsel of Record for Respondents State of New York, States and Municipalities
Yaakov M. Roth
Jones Day
51 Louisiana Ave. NW
Washington, D.C., 20001
yroth@jonesday.com
(202) 879-3939
Counsel of Record for Petitioner North American Coal Corporation (20-1531)
Mark W. DeLaquil
Baker & Hostetler LLP
1050 Connecticut Ave. NW
Washington, D.C., 20036
agrossman@bakerlaw.com
(202) 861-1679
Counsel of Record for Petitioner Westmoreland Mining Holdings, LLC (20-1778)
Paul M. Seby
Greenberg Traurig LLP
1144 15th St. Suite 3300
Denver, CO, 80202
sebyp.@gtlaw.com
303-572-6500
Counsel of Record for Petitioner State of North Dakota (20-1780)

